         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       EPA Can Improve Its
       Oversight of Audit Followup

       Report No. 2007-P-00025   


       May 24, 2007

Report Contributors:              Susan Barvenik
                                  Laura Tam
                                  Ira Brass
                                  Dan Engelberg
                                  Linda Fuller
                                  Renee McGhee-Lenart
                                  Dan Cox
                                  Tim Roach




Abbreviations

AFC          Audit Followup Coordinator
AFO          Audit Followup Official
AMO          Audit Management Official
AO           Action Official
CFO          Chief Financial Officer
EPA          U.S. Environmental Protection Agency
IGOR         Inspector General Operations and Reporting System
MATS         Management Audit Tracking System
OCFO         Office of the Chief Financial Officer
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of Inspector General
OMB          Office of Management and Budget
OW           Office of Water
WET          Whole Effluent Toxicity
                                                                                                       2007-P-00025
                                                                                                        May 24, 2007
                     U.S. Environmental Protection Agency
                     Office of Inspector General


                     At a Glance

                                                                          Catalyst for Improving the Environment


Why We Did This Review           EPA Can Improve Its Oversight of
The Office of Inspector
                                 Audit Followup
General (OIG) undertook this
review to determine (1) the       What We Found
status of corrective actions
responding to OIG report         EPA is generally undertaking actions for the nine water-related reports in our
recommendations for selected     review— seven directed to the Office of Water (OW) and two directed to the
water reports, and (2) how       Office of Enforcement and Compliance Assurance (OECA). However, several
complete and up-to-date is the   actions in response to individual recommendations were delayed past milestone
Management Audit Tracking        dates agreed to by the OIG.
System (MATS) report
information for selected OIG     Both program offices and the Office of the Chief Financial Officer (OCFO), in its
water reports.                   oversight role, can do more to monitor the audit followup process and ensure that
                                 timely and appropriate corrective actions are taking place. OCFO’s annual audit
Background                       followup reporting to Congress did not present required information on specific
                                 audit recommendations or reasons for delays in taking corrective actions. The
Audit followup is essential to   Agency’s audit tracking system, MATS, was also incomplete and contained
good management and is a         mistakes. While OW’s official files were generally complete, OECA did not have
shared responsibility of         files for OIG reports prior to January 2006, including the two reports we reviewed.
agency managers and audit        Both OW and OECA did not follow the processes specified in EPA Order 2750
organizations. The U.S.          for certifying the completion of implementing corrective actions. The OIG will
Environmental Protection         also improve its followup on audit and evaluation reports.
Agency (EPA) has audit
followup procedures and
designated officials who          What We Recommend
manage this process. EPA is
                                 We recommend that OW and OECA implement EPA Order 2750 and biannually
required to report to Congress
                                 review audit management information for accuracy and completeness. We also
on audit followup, including
                                 recommend that OW and OECA follow the certification process for closing out
any reasons for delays in
                                 reports, maintain a list of corrective actions taken, and obtain OIG approval for
taking corrective actions that
                                 significant changes to corrective action plans.
have not been implemented
within 1 year of issuing an
audit report.                    We recommend that the Chief Financial Officer take several steps, including:
                                    •	 Monitoring EPA Order 2750 compliance throughout the Agency.
For further information,
contact our Office of
                                    •	 Reporting to Congress the report names and reasons for delay past 365
Congressional and Public                days for completing corrective actions as required under EPA Order 2750
Liaison at (202) 566-2391.              and the IG Act.
                                    •	 Ensuring the validity and reliability of data in MATS by documenting a
To view the full report,
                                        quality assurance plan, issuing necessary guidance, and providing
click on the following link:            refresher training to Audit Followup Coordinators.
www.epa.gov/oig/reports/2007/
20070524-2007-P-00025.pdf        The Agency generally concurred with all of our recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                          May 24, 2007

MEMORANDUM

SUBJECT:	 EPA Can Improve Its Oversight of Audit Followup
          Report No. 2007-P-00025


FROM:	         Wade T. Najjum
               Assistant Inspector General, Office of Program Evaluation

TO:	           Lyons Gray
               Chief Financial Officer

               Benjamin Grumbles          

               Assistant Administrator, Office of Water 


               Granta Nakayama
               Assistant Administrator, Office of Enforcement and Compliance Assurance

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $104,602.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact me at 202-566-0827 or
najjum.wade@epa.gov; or Dan Engelberg, Director for Program Evaluation, Water Issues, at
202-566-0830 or engelberg.dan@epa.gov.
                                    EPA Can Improve Its Oversight of Audit Followup



                                         Table of Contents

Purpose..................................................................................................................................        1      


Background ..........................................................................................................................            1      


Noteworthy Achievements                     ..................................................................................................   3


Scope and Methodology ........................................................................................................                   4


EPA Is Taking Action on OIG Recommendations..................................................................                                    4


              Many Corrective Actions Were Delayed More Than 1 Year....................................                                          5      


EPA Tracking of Audit Reports Is Incomplete........................................................................                              6


              Audit Followup Reporting Is Incomplete..................................................................                           6      

              Audit Records Are Inconsistent ...............................................................................                     7      

              Certification Memos Are Missing.............................................................................                       8      


OIG Can Improve Followup on Audits and Evaluations.........................................................                                      9


Conclusion             .......................................................................................................................   10         


Recommendations .................................................................................................................                10         


Agency Comments and OIG Evaluation ...............................................................................                               11 


Status of Recommendations and Potential Monetary Benefits ..............................................                                         12 




Appendices
A             Reports Included in Review.....................................................................................                    13 


B             Response by the Office of the Chief Financial Officer.............................................                                 14 


C             Response by the Office of Water ............................................................................                       17 


D             Response by the Office of Enforcement and Compliance Assurance ....................                                                20 


E             Distribution ..............................................................................................................        23

Purpose
                 The purpose of this project was to evaluate the status of corrective actions taken
                 by the U.S. Environmental Protection Agency (EPA) in response to selected
                 Office of Inspector General (OIG) water reports. Our objectives were to
                 determine:

                 1.	     What is the status of corrective actions responding to OIG report
                         recommendations, for selected reports?
                 2.	     How complete and up-to-date is the Management Audit Tracking System
                         (MATS) report information for selected OIG reports?

                 Our review also revealed audit followup issues outside of MATS that are
                 appropriate for Agency management to review at this time, concerning annual
                 reporting and other required elements.

Background
                 The Inspector General Act of 1978 established OIGs in Federal agencies to
                 conduct independent audits and investigations of agency programs and operations,
                 and make recommendations to improve their efficiency and effectiveness.
                 Amendments to the Act added in 1988 directed agencies to report to Congress
                 semiannually on the status of followup on OIG audit report recommendations.

                 Audit followup is essential to good management and to improving the efficiency
                 and effectiveness of EPA programs and operations. Audit followup is also a
                 shared responsibility of agency managers and audit organizations.1 The EPA
                 OIG’s commitment to followup is reflected in the 2004-2008 Strategic Plan, with
                 the aim of improving accountability for actions leading to environmental
                 improvements.

                 EPA’s policy and procedures on the audit followup process are contained in EPA
                 Order 2750, most recently revised in 1998. EPA Order 2750 implements the
                 policies and procedures of OMB Circular A-50, which specifies certain
                 timeframes for audit resolution, and requires agencies to develop systems to
                 ensure prompt implementation of recommendations. The Order also specifies a
                 chain of responsibility for the audit management process, starting with the Chief
                 Financial Officer (CFO) as the Agency’s designated Audit Followup Official
                 (AFO). According to EPA Order 2750, the AFO has “personal responsibility” for
                 Agency-wide audit resolution and ensuring that corrective actions are
                 implemented. Other duties in the audit management chain are also described in
                 Table 1.


1
 According to the Office of Management and Budget’s (OMB’s) Circular A-50 on audit followup, available at
http://www.whitehouse.gov/omb/circulars/a050/a050.html .

                                                    1

Table 1. Selected position responsibilities in the audit management chain

                    Title                                       Duties
       Audit Followup                •    Ensures Agency-wide audit resolution and
       Official (AFO)                    that systems for audit followup are in place
                                     •    Ensures corrective actions are actually
                                         implemented
                                     •    Designates an Agency-wide Audit Followup
                                         Coordinator, who maintains and conducts
                                         quality assurance and analysis of the
                                         Agency audit tracking system and data, and
                                         prepares reports to Congress
     Action Officials (AO)           •    Responsible for implementing the audited
                                         program (commonly the Regional or
                                         Assistant Administrator to whom the report is
                                         addressed)
                                     •    Ensures that corrective actions are
                                         documented, tracked, and implemented
                                     •    Certifies (or designates a certifying official)
                                          that corrective actions are complete
     Audit Management                •    Is designated in each regional and national
      Officials (AMO)                    program office
                                     •    Develops and maintains office-specific
                                         procedures for audit followup and resolution
                                     •    Designates office-specific Audit Followup
                                         Coordinators
                                     •    Ensures managers and staff within their
                                         office understand the audit management
                                         process, and take timely and appropriate
                                         corrective actions
       Audit Followup                •    Serves as a contact point for OIG
     Coordinators (AFCs)             •    Provides guidance and ensures that
                                         responses to OIG reports are complete and
                                         timely
                                     •    Maintains official files containing the record
                                         of management decisions and certifications
                                         of completed corrective actions
                                     •    Provides status reports to the Agency-wide
                                         AFC on corrective actions, audit resolution,
                                         and tracks reasons for delay

Source: EPA Order 2750, Chapter 2.

OIG reports usually contain recommendations for Agency action officials to take
corrective actions to address the findings and conclusions of the report. The
Agency and the OIG agree on the corrective actions and document them in the
Management Decision letter. EPA Order 2750 requires actions to be completed
within 365 days of the management decision, or otherwise explain reasons for
delay. OIG is responsible for maintaining a tracking system for audit reports and
providing data to Agency AFCs. It is also responsible for compiling audit
statistics and other information for the OIG’s semiannual reports to Congress.

                               2

                  The Office of the Chief Financial Officer (OCFO), responsible as the Audit
                  Followup Official, maintains and operates the Management Audit Tracking
                  System (MATS) to track audit followup, report, and resolution dates; and
                  corrective actions Agency-wide. MATS receives basic report data, such as the
                  report title and issue date, from the Inspector General Operations and Reporting
                  System (IGOR).2 AFCs use MATS to track deadlines, such as the 180-day
                  deadline for agreeing upon corrective actions in response to final report
                  recommendations, and the 365-day deadline for implementing corrective actions.
                  AFCs are responsible for quality assurance and analysis of tracking system data.
                  When corrective actions for an audit report are complete and certified, the Agency
                  may inactivate that report’s MATS file, meaning it no longer must be actively
                  tracked by the AFC. OCFO uses MATS data to compile annual performance and
                  accountability reports to Congress. However, OCFO only requires limited
                  information to be entered into MATS, including milestone dates, financial
                  information if applicable, and explanations for missed deadlines. Further details
                  on the status and actions taken to implement corrective actions must be
                  documented by the Action Official’s office. This information is essential for the
                  Agency to assess and certify that agreed-on actions are completed.

                  AFCs are also required to maintain official files, which contain records of audit
                  reports, management decisions, and certifications of completed corrective actions.
                  According to EPA Order 2750, official files are required to include seven major
                  elements:

                  •	       Names of Action Official and other parties responsible for implementing,
                           tracking, following-up, and reporting on corrective actions;
                  •	       Draft reports;
                  •	       Response to draft reports;
                  •	       Final reports;
                  •	       Approved Management Decisions;
                  •	       OIG Management Decision acceptance memoranda; and
                  •	       All pertinent documentation and certification information.

                  Together, MATS and official files document an audit’s history, as well as the
                  actions taken by the Agency to address recommendations and correct deficiencies.

Noteworthy Achievements
                  OCFO has committed to working cooperatively with the OIG to strengthen the
                  audit followup process and improve oversight. Both the Office of Water (OW)
                  and the Office of Enforcement and Compliance Assurance (OECA) initiated
                  corrective actions and commited to others while our review was in process. These


2
  At this time, report recommendations are not stored in IGOR and therefore are not part of the data automatically
transferred by the OIG to MATS for audit reports.

                                                       3

         positive steps were taken to build on the shared audit followup responsibility of
         Agency managers and the OIG.

Scope and Methodology
         We conducted our review from July 2006 to December 2006. We selected final
         reports of the OIG Office of Program Evaluation Water Product Line, issued
         between Fiscal Years 2001 and 2005, for which OIG did not have information
         sufficient to conclude that corrective actions were complete for all
         recommendations (see Appendix A). We reviewed recommendations and
         corrective actions agreed to by the Agency for seven reports with OW as the
         Action Official, and two reports with OECA as the Action Official. The scope of
         this project is limited to these nine reports and two Offices. We developed
         questions regarding the status of corrective actions, and requested updates on
         these actions from the program offices. Our questions covered 50 agreed-upon
         recommendations: 31 addressed to OW, and 19 addressed to OECA. We used
         this information to assess the timeliness and completeness of Agency actions on
         our reports. We relied on the Agency's responses to our specific followup
         questions on each of the nine reports in our scope to determine the status of
         implementing of corrective actions reported by OW and OECA. We did not
         assess the Agency's corrective actions.

         We reviewed June and July 2006 MATS files for report completeness and
         October 2006 MATS files for semiannual updates in the status of activities as
         reported by the program offices. We did not review the entire MATS system or
         MATS files for OIG reports other than the nine in our scope. We interviewed
         officials in OW, OECA, and OCFO on their followup processes and procedures,
         including maintaining official files and using certifications for inactivating reports
         in MATS. We reviewed audit followup guidance issued by EPA and OMB,
         including EPA Order 2750, and other provisions of the Inspector General Act and
         Reports Consolidation Act.

         We performed this review according to Government Auditing Standards issued by
         the Comptroller General of the United States. We reviewed those internal
         controls relevant to our objectives.

EPA Is Taking Action on OIG Recommendations
         We found that, in general, the Agency is taking actions in response to the nine
         OIG reports that we followed up on. EPA provided evidence that many
         corrective actions were completed or ongoing, although we did not assess the
         effectiveness of these actions. For example, OW and OECA provided copies of
         guidance, Websites, meeting notes, and presentations to show that they had
         implemented corrective actions.



                                         4

                 More specifically, we found:

                 •	      OW is taking actions for all seven of the reports with OW as the Action
                         Official.3 We followed up on 31 recommendations, some of which had
                         multiple parts. We found that the agreed-upon actions for 9
                         recommendations could be considered complete, 21 could be considered
                         ongoing, and 1 had not been acted upon. We did not assess how effective
                         these corrective actions were at meeting the goals of the
                         recommendations.
                 •	      For the two reports with OECA as the Action Official, we followed up on
                         19 agreed-upon recommendations. We found that OECA has completed
                         its agreements for eight of these recommendations, nine were ongoing,
                         and two were not acted upon. Again, we did not assess how effective
                         these corrective actions were at meeting the goals of the
                         recommendations.

                 Many Corrective Actions Were Delayed More Than 1 Year

                 All of the reports we reviewed contained corrective actions that extended beyond
                 365 days from the management decision. We found that it has taken program
                 offices over 3 years from the management decision date to implement agreed-
                 upon actions in response to some recommendations. For 10 recommendations,
                 OECA has taken over 4 years to complete corrective actions agreed to by the
                 OIG. For example:

                 •	      In response to our September 2003 drinking water capacity report,4 OW
                         agreed to develop a national capacity development strategy by December
                         2005. OIG later agreed to a revised due date of April 2006. OW said the
                         report would be completed and sent to OIG in October 2006, but had not
                         provided the report as of March 2007. The Agency did not provide any
                         reasons for delay in the two reporting periods we reviewed in MATS.
                 •	      Based on OIG’s August 2004 effluent guidelines report,5 OW agreed to
                         provide two studies on the effectiveness of several effluent guidelines by
                         May 2005. OIG did not receive these studies until October 2006, and no
                         reasons for delay were provided in the two reporting periods we reviewed
                         in MATS.



3
  For our report on effluent guidelines (Effectiveness of Effluent Guidelines Program for Reducing Pollutant

Discharges Uncertain, Report No. 2004-P-00025, August 24, 2004), OW and OIG reached a management decision

in November 2006, and all corrective actions are now considered complete. 

4
  Impact of EPA and State Drinking Water Capacity Development Efforts Uncertain, Report No. 20003-P-00018, 

September 30, 2003, http://www.epa.gov/oig/reports/2003/2003-p-00018-20030930.pdf . 

5
  Effectiveness of Effluent Guidelines Program for Reducing Pollutant Discharges Uncertain, Report No. 2004-P

00025, August 24, 2004, http://www.epa.gov/oig/reports/2004/20040824-2004-P-00025.pdf . 




                                                    5

                 •	       In the 2001 report on State water enforcement,6 OIG recommended that
                          OECA issue guidance specifying that Whole Effluent Toxicity (WET)
                          violations may be considered significant noncompliance, and should be
                          reported on the quarterly noncompliance report. OECA never issued
                          additional guidance, and is relying on the Office of Wastewater
                          Management in OW to develop WET implementation guidance for
                          National Pollutant Discharge Elimination System permits. This guidance
                          was still in draft in 2006, while this report’s MATS file is no longer
                          active.7

                 Completing corrective actions may take longer than the 365 days required by EPA
                 Order 2750; the Agency may encounter unexpected delays in meeting milestone
                 dates. However, corrective actions and agreed-upon dates should not be
                 significantly revised or extended without concurrence from OIG. EPA Order
                 2750 requires OIG approval for “significant changes” to the corrective action
                 plan, including “modifying a corrective action” or deferring “critical milestone
                 dates that would delay completing the corrective action plan for 6 months or
                 more.” When delays occur, timely communication and documented reasons for
                 delays are necessary for both OIG and EPA to meet reporting requirements to
                 Congress.

EPA Tracking of Audit Reports Is Incomplete

                 Both program offices and OCFO, in its oversight role, can do more to monitor the
                 audit followup process, and ensure that timely and appropriate corrective actions
                 are taking place. For example, we found that OCFO’s annual audit followup
                 reporting to Congress did not present required information on specific audit
                 recommendations or reasons for delays in taking corrective actions. For the
                 selected reports we reviewed, OW’s official files were generally complete.
                 However, OECA's official files were not consistently maintained and some
                 MATS files in both OW and OECA were incomplete and contained mistakes.
                 Both OW and OECA did not follow the process specified in EPA Order 2750 for
                 closing out reports and certifying completing and implementing corrective
                 actions.

                 Audit Followup Reporting Is Incomplete

                 EPA began reporting audit followup information with other performance
                 information on an annual basis, based on passage of the Reports Consolidation



6
  Water Enforcement: State Enforcement of Clean Water Act Dischargers Can Be More Effective, Report No. 2001
P-00013, August 14, 2001, http://www.epa.gov/oig/reports/2001/finalenfor.pdf .
7
  OECA believed previously issued guidance was sufficient for this recommendation; however, in the corrective
action plan, OECA agreed to issue new guidance in 2003, and did not obtain approval from the OIG to deviate from
this plan as required by EPA Order 2750.

                                                     6

                Act of 2000.8 While the consolidation process reduced the reporting frequency,
                it did not change the information the Agency was required to report. OCFO’s
                practice of omitting information on EPA’s responsiveness to audit reports impairs
                its oversight of corrective actions, and limits public and congressional visibility
                over EPA’s correcting deficiencies. It also increases the Agency’s vulnerability
                to identified weaknesses when it does not implement corrective actions.

                OCFO’s annual Performance and Accountability reports to Congress were
                incomplete. The reports did not present a complete accounting of EPA’s audit
                followup activities or the status of corrective actions. Beginning in 2003, the
                Agency’s annual reports have not included specific information on outstanding
                audit reports. These omissions include audit titles, dates issued, and explanations
                for delays in taking agreed-upon corrective actions. The Agency’s reports only
                present information on the number of open recommendations, completed actions,
                and the dollar value of funds put to better use.

                Since 2003, OCFO’s annual Performance and Accountability reports to Congress
                have been inaccurate due to their reliance on erroneous data in MATS. The OIG
                report on State water enforcement issues, issued in August 2001, was inactivated
                in MATS in August 2003.9 By OCFO’s method of accounting for audit reports
                with final corrective action taken, this report was listed as an Agency
                accomplishment in EPA’s Fiscal Year 2003 annual report, and was no longer
                tracked or reported as ongoing. However, in response to our project questions,
                OECA stated that corrective actions were still ongoing and incomplete for at least
                eight recommendations as of October 2006. OCFO should have continued to
                report this evaluation as “Final Corrective Action Not Taken Beyond One Year,”
                and provided reasons for delay in its annual reports to date.

                Audit Records Are Inconsistent

                Both OW and OECA were inconsistently using MATS. While OW’s official files
                were generally complete, OECA did not have official files prior to January 2006.
                Errors and poor internal controls over the audit records system resulted in
                inaccurate reporting for one report, and made it difficult to ascertain the status of
                corrective actions. OW and OECA have committed to improving the
                completeness and accuracy of their audit records.

                OW's official files were generally complete for the seven reports we reviewed.
                While some of the required elements for the seven areas were not in the labeled
                tabs of the official files, most of the information was available elsewhere in the
                official files or in MATS. OECA has not maintained official files for OIG reports
                prior to January 2006. Therefore, OECA did not have any official files for the

8
  EPA’s OCFO continues to work with OIG semiannually to prepare the OIG’s semiannual reports to Congress,

which Congress still requires. 

9
  Water Enforcement: State Enforcement of Clean Water Act Dischargers Can Be More Effective, Report No. 2001

P-00013, August 14, 2001, http://www.epa.gov/oig/reports/2001/finalenfor.pdf . 


                                                    7

                   two reports included in our review. OECA said that program offices have
                   documentation on the activities performed in response to a promised corrective
                   action, but these are not kept in a central file and are not readily available.

                   MATS, the Agency’s electronic audit tracking system, was incomplete and
                   contained errors (see Appendix A for the list of reports).10 For seven reports
                   issued to OW, MATS files showed inconsistent usage of the system as well as
                   data quality issues. Two MATS files did not show recommendations. Another
                   file showed recommendations for a different report, a mistake which may have
                   occurred because both reports had similar names. Four reports for which
                   corrective actions had not been taken within 1 year did not have any explanations
                   for the delay, despite OCFO’s requirement to maintain this management
                   information in MATS. Instead, the Past Due Notes section often contained
                   milestone dates or a schedule of activities. Based on our review, OW reported
                   that it has corrected errors and updated its MATS files.

                   For two reports issued to OECA,11 one report’s MATS file was incorrectly shown
                   as being in “inactive” status as of 2003. The program office had inactivated this
                   file in 2003 but told us during this project work that corrective actions were not
                   complete as of 2006. Based on this information, OECA should not have
                   inactivated the report in MATS, which resulted in OCFO reporting inaccurate
                   information to Congress. OECA acknowledged that this report was coded
                   inactive prior to all corrective actions being completed, but believed this coding
                   was an error not indicative of its regular followup activities. OECA reported that
                   it will review all OIG reports in the MATS system inactivated in the past 5 years.
                   OECA also planned to return the improperly inactivated report to active status.

                   Because the program offices maintain the documentation of corrective action
                   implementation, AFCs do not have all documentation that the corrective actions
                   are actually taken. Official files containing the listed information are important to
                   properly manage audit report followup and to ensure continuity of followup if
                   staff turnover occurs. The lack of official files or full MATS utilization may
                   make reporting requirements even more time-consuming and burdensome because
                   documentation is so decentralized. Poor tracking of audit followup may adversely
                   affect the completeness and accuracy of the Agency's annual reporting process
                   and reports to Congress.

                   Certification Memos Are Missing

                   OW and OECA did not comply with the Agency’s requirement for certifying
                   closures of OIG reports, although EPA Order 2750 establishes a process for
                   certifying that corrective actions are complete and have been implemented. An
                   Action Official (AO) is responsible for maintaining documentation of corrective
                   actions. For each action, the designated AO is also required to certify “in writing
10
     One report was not in MATS due to an error in the IGOR system.
11
     One report was not in MATS.

                                                       8

                that the corrective actions are complete.” The AFC is then required to keep this
                certification in the official file. A report should not be placed in inactive status in
                MATS until this step has occurred. OCFO believes it is the AFC’s responsibility
                to have the certification memo in-hand before inputting the final action date.
                Entry of a final action date by an AFC automatically triggers MATS to inactivate
                the report without further verification by OCFO. As a result, reports may be
                inactivated from the audit tracking system before the corrective actions are
                complete. For at least one report, this premature inactivation led to the Agency
                sending incorrect information to Congress on audit followup status.

                We requested a certification for two reports in “inactive” status in MATS, one
                from OW and one from OECA. However, neither OECA nor OW had
                certifications on file.12 OECA did not have certifications for any inactivated
                reports, and believed that certification could “take different forms.” OW
                confirmed that it did not follow the required formal certification procedures for
                this or other reports, although it plans to develop guidance to implement the
                process.

                OCFO does not provide additional guidance on the certification format, such as
                listing the actions being certified. OCFO also does not have effective internal
                controls in place to ensure that MATS files are not inactivated until a certification
                memo has been signed by the Action Official or designee.

                All three Offices are taking steps to remedy this problem. OECA is considering
                developing Standard Operating Procedures for use in its Administration and
                Resource Management Support Staff office that have the potential to address the
                certification issue. OECA reported that its review of inactivated OIG reports in
                the MATS system will also include obtaining documentation on all corrective
                actions, and securing the required certifications of completion. OW is planning
                on issuing a memo to Office Directors describing the audit process and will be
                requesting a formal memo certifying completion of corrective actions. OCFO
                plans to develop a model certification letter for program offices to use and obtain
                AMO signatures, along with instructions for entering certification information in
                MATS.

OIG Can Improve Followup on Audits and Evaluations
                As part of our evaluation, we reviewed internal followup processes and
                procedures within the OIG. We found several opportunities for OIG to improve
                oversight of the audit process. We briefed OIG management on the opportunities.
                Generally, the OIG can improve the followup process by:


12
  In OECA, Water Enforcement: State Enforcement of Clean Water Act Dischargers Can Be More Effective, Report
No. 2001-P-00013, August 14, 2001, http://www.epa.gov/oig/reports/2001/finalenfor.pdf and in OW, States Making
Progress on Source Water Assessments, But Effectiveness Still to Be Determined, Report No. 2004-P-00019, May
27, 2004, http://www.epa.gov/oig/reports/2004/20040527-2004-P-00019.pdf .

                                                    9

         •	 Performing regular periodic reviews of MATS
         •	 Improving tracking of milestone dates for agreed-upon corrective actions
         •	 Standardizing internal implementation procedures for internal followup policy
         •	 Establishing a systematic process and procedures to review the Agency’s
            corrective actions, and
         •	 Improving the clarity of report recommendations

         The Acting IG is committed to working cooperatively with OCFO to improve the
         follow-up process and the clarity of OIG reports.

Conclusion
         We concluded that EPA can better manage the audit followup process in several
         areas, including the record-keeping system and certifications of completed
         actions. OCFO has not ensured that its annual reporting to Congress and the
         public is fully accurate or complete. For the reports we reviewed, EPA Offices’
         noncompliance with Order 2750 has prevented the Agency from accurately
         monitoring and reporting the extent to which it has implemented audit
         recommendations. OW and OECA did not appear to be efficiently utilizing
         MATS or maintaining all of the key elements of the Agency’s guidance on audit
         followup. As a result, the value of audit reports and recommendations to EPA
         may be diminished. OW and OECA have informed us that they have both begun
         taking corrective actions and committed to further future improvements. We
         encourage OECA to continue its efforts to improve its audit followup process.
         Based partly on this review, OCFO and OIG have committed to working
         collaboratively to improve oversight and strengthen the audit followup process.

Recommendations
         We recommend that the Assistant Administrators for OW and OECA:

         1.	    Require AMOs and AFCs to implement EPA Order 2750, and biannually
                review audit management information including official files, to ensure
                completeness and accuracy.

         2.	    Obtain OIG approval for any significant changes to corrective action
                plans, involving the deferral of milestone dates for 6 months or more.

         3.	    Require AMOs and AFCs to certify in MATS the date of the certification
                letter and signing official's name and title, before the Final Action Date is
                entered, and the report moved to Inactive status.

         4.	    Require AFCs to maintain a list of corrective actions taken by the program
                office either in MATS or in the official files.



                                        10

         We recommend that the Chief Financial Officer:

         5. 	   Monitor EPA Order 2750 compliance throughout the Agency.

         6. 	   Report to Congress as required under EPA Order 2750 and the Inspector
                General Act, as amended, including the report names and reasons for
                delay past 365 days for completion of corrective actions.

         7. 	   Issue guidance to AMOs and AFCs defining information that should be in
                the Past Due Notes section of MATS.

         8. 	   Document OCFO's quality assurance plan for MATS, including periodic
                spot checks, to ensure the quality of data in the system.

         9. 	   In addition to the training OCFO currently provides on an as-needed basis,
                prior to the semiannual reporting, provide refresher training to AFCs on
                populating the required data fields and the final action requirements of
                MATS and EPA Order 2750, including certifications, necessary for report
                inactivation.

Agency Comments and OIG Evaluation
         All three program offices generally concurred with the recommendations
         presented in our draft report. EPA’s detailed responses are in Appendices B, C,
         and D. OW concurred with our findings, and reported that their AFC would
         biannually review all audit information including official files. OW will also
         obtain certification letters for three reports with corrective actions known to be
         complete. OECA provided a corrective action plan to address the report
         recommendations. OECA has assigned its Administration and Resources
         Management Support Staff to work with senior managers across OECA to
         develop a set of Standard Operating Procedures, which will address compliance
         with Order 2750.

         OCFO reiterated its commitment to overseeing audit followup, and agreed with
         our recommendations with a few considerations. OCFO proposed to issue a
         memorandum to EPA national program managers and other senior leaders
         reiterating the need for accurate and timely record-keeping. OCFO also proposed
         to reinstate detailed information on audit followup in its reports to Congress,
         along with a link on its website for additional information. We slightly modified
         Recommendations 6 and 9 in response to OCFO’s comments. We left
         Recommendation 5 unchanged because we do not have sufficient evidence to
         support modifying it at this time. We anticipate receiving more details on
         OCFO’s proposed memorandum, compliance monitoring, and quality assurance
         plan for MATS in the Agency’s 90-day response.



                                        11

                                    Status of Recommendations and
                                      Potential Monetary Benefits

                                                                                                                                      POTENTIAL MONETARY
                                                        RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                          Planned
     Rec.    Page                                                                                                        Completion   Claimed    Agreed To
     No.      No.                            Subject                           Status1         Action Official              Date      Amount      Amount

      1       10     Require
                         	    AMOs and AFCs to implement EPA Order               O       Assistant Administrators for

                     2750, and biannually review audit management                              OW and OECA 

                     information including official files, to ensure
                     completeness and accuracy.
      2       10     Obtain
                         	 OIG approval for any significant changes to           O       Assistant Administrators for

                     corrective action plans, involving the deferral of                        OW and OECA 

                     milestone dates for 6 months or more.
      3       10     Require
                        	     AMOs and AFCs to certify in MATS the               O       Assistant Administrators for

                     date of the certification letter and signing official's                   OW and OECA 

                     name and title, before the Final Action Date is
                     entered, and the report moved to Inactive status.
      4       10     Require
                         	     AFCs to maintain a list of corrective             O       Assistant Administrators for

                     actions taken by the program office either in MATS                        OW and OECA 

                     or in the official files.
      5       11 	 Monitor EPA Order 2750 compliance throughout                  O         Chief Financial Officer 

                   the Agency.

      6       11 	 Report to Congress as required under EPA Order                O         Chief Financial Officer 

                   2750 and the Inspector General Act, as amended,
                   including the report names and reasons for delay
                   past 365 days for completion of corrective actions.

      7       11     Issue
                         	 guidance to AMOs and AFCs defining                    O         Chief Financial Officer 

                     information that should be in the Past Due Notes
                     section of MATS.
      8       11 	 Document OCFO's quality assurance plan for                    O         Chief Financial Officer 

                   MATS, including periodic spot checks, to ensure
                   the quality of data in the system.
      9       11     In addition
                         	       to the training OCFO currently provides         O         Chief Financial Officer 

                     on an as-needed basis, prior to the semiannual
                     reporting, provide refresher training to AFCs on
                     populating the required data fields and the final
                     action requirements of MATS and EPA Order 2750,
                     including certifications, necessary for report
                     inactivation.




1	    O = recommendation is open with agreed-to corrective actions pending
      C = recommendation is closed with all agreed-to actions completed
      U = recommendation is undecided with resolution efforts in progress




                                                                                  12

                                                                                 Appendix A

                       Reports Included in Review

We followed up on two OIG reports for which the Action Official is the Assistant Administrator
for OECA:

   1.	 Water Enforcement: State Enforcement of Clean Water Act Dischargers Can Be More
       Effective, Report No. 2001-P-00013, August 14, 2001.
   2.	 EPA Should Take Further Steps to Address Funding Shortfalls and Time Slippages in
       Permit Compliance System Modernization Effort, Report No. 2003-M-00014, May 20,
       2003.

We followed up on seven OIG reports for which the Action Official is the Assistant
Administrator for OW:

   1.	 Wastewater Management: Controlling and Abating Combined Sewer Overflows, Report
       No. 2002-P-00012, August 26, 2002.
   2.	 Impact of EPA and State Drinking Water Capacity Development Efforts Uncertain,
       Report No. 2003-P-00018, September 30, 2003.
   3.	 Effectiveness of Effluent Guidelines Program for Reducing Pollutant Discharges 

       Uncertain, Report No. 2004-P-00025, August 24, 2004. 

   4.	 EPA Needs to Reinforce Its National Pretreatment Program, Report No. 2004-P-00030,
       September 28, 2004.
   5.	 Source Water Assessment and Protection Programs Show Initial Promise, But Obstacles
       Remain, Report No. 2005-P-00013, March 28, 2005.
   6.	 Efforts to Manage Backlog of Water Discharge Permits Need to Be Accompanied by
       Greater Program Integration, Report No. 2005-P-00018, June 13, 2005.
   7.	 Progress Report on Drinking Water Protection Efforts, Report No. 2005-P-00021,
       August 22, 2005




                                            13

                                                                                  Appendix B

  Response by the Office of the Chief Financial Officer

MEMORANDUM

SUBJECT:       Office of the Chief Financial Officer Response to the Office of Inspector General
               Draft Audit Evaluation Report, “EPA Can Improve Its Oversight of Audit
               Follow-up,” April 5, 2007, No. 2006-1508

FROM:          Lyons Gray
               Chief Financial Officer

TO:            Dan Engelberg
               Director for Program Evaluation, Water Issues
               Office of Inspector General

        We appreciate the opportunity to provide written comments on the above-referenced draft
audit evaluation report. Audit follow-up is essential to good management, and the Office of the
Chief Financial Officer (OCFO) takes its responsibilities for overseeing EPA’s audit follow-up
process very seriously. We are fully committed to maintaining and strengthening the Agency’s
audit management process and to ensuring that timely and appropriate corrective actions are
taking place, are duly and accurately entered into the Agency’s audit tracking system, and are
fully and appropriately reported to the Congress. We look forward to continuing our work with
the OIG to strengthen audit follow-up within EPA, thereby helping improve the effectiveness
and efficiency of the Agency’s programs and achieve better environmental results.

        I am attaching our response to the recommendations presented in OIG’s draft evaluation
report. Should you or your staff have questions about these comments or require any additional
information, please contact Debbie Rutherford of OCFO’s Office of Planning, Analysis, and
Accountability at 202-564-1913.

Attachment

cc: 	   Benjamin Grumbles, Assistant Administrator, OW
        Granta Nakayama, Assistant Administrator, OECA
        Maryann Froehlich, Deputy Chief Financial Officer
        Joshua Baylson, Associate Chief Financial Officer
        Kathy Sedlak O’Brien, Director, Office of Planning, Analysis, and Accountability




                                             14

               OCFO’s Response to the Recommendations for OCFO Action 

                  Contained in OIG’s Draft Audit Evaluation Report: 

                 “EPA Can Improve Its Oversight of Audit Follow-up” 

                       April 5, 2007, Assignment No. 2006-1508


       The Office of the Chief Financial Officer (OCFO) acknowledges the consideration that
the Office of the Inspector General (OIG) has given to our observations on the preliminary
discussion draft of this report. We appreciate the ways in which OIG has addressed our
comments and concerns in this latest draft. We believe that this draft report reflects more
accurately OCFO’s ongoing oversight efforts under EPA Order 2750 and our reliance on the
Agency’s audit follow-up coordinators. We largely support all of OIG’s recommendations,
although in some cases we would like to raise some further considerations or clarifications. We
have provided our response to each specific recommendation below. OCFO looks forward to
working closely with OIG to implement these recommendations and strengthen EPA’s audit
management process.

OIG Recommendation # 5: Monitor EPA Order 2750 compliance throughout the Agency.

       Agree, with considerations. To better characterize our continuing efforts in support of
Agency compliance with EPA Order 2750, we suggest that Recommendation # 5 read:
“Continue to monitor EPA Order 2750 compliance. . . .”

        OCFO has been committed to ensuring Agency compliance with EPA Order 2750 and a
sound audit follow-up process since the Inspector General Act Amendments of 1988 authorized
federal departments and agencies to provide information to the Congress on their decisions and
plans to follow up OIG audit report recommendations. The Agency’s Audit Follow-up
Coordinator (AFC) within OCFO works with Agency staff on a daily basis, providing technical
assistance and training and verifying data entered into the Management Audit Tracking System
(MATS).

       To reinforce audit follow-up within the Agency, the Chief Financial Officer, as EPA’s
Audit Follow-up Official, will issue a memorandum to all EPA national program managers,
regional administrators, and other senior leaders reiterating the need for accurate and timely
record-keeping and reporting and the importance of complete cooperation and full support of
Agency personnel in implementing the requirements of Order 2750. We are committed to
working with OIG to improve oversight and strengthen the audit follow-up process.

OIG Recommendation #6: Report to Congress as required under EPA Order 2750 and the
IG Act, including the report[ing of] names and reasons for delay past 365 days for
completion of corrective actions.

        Agree, with considerations. OCFO concurs with the need to fully report to the Congress
on the completion of corrective actions, and we will reinstitute our previous practice (FY 2001
and FY 2002) of listing audit titles, audit numbers, and the responsible office, beginning with our
FY 2007 Performance and Accountability Report (PAR). We propose to include a link to

                                              15

OCFO’s website, where the public will be able to find reasons for delays in completing
corrective actions, along with the Agency AFC’s name, telephone number, and e-mail address
for further information. In addition, we would suggest that this recommendation and the draft
report make clear that, in some cases, agreed-upon corrective actions may require more than 365
days (sometimes several years). Therefore, final actions delayed beyond 365 days do not
necessarily indicate that corrective action is not on track. We also suggest that the citation of the
Inspector General Act in this recommendation be revised to “the Inspector General Act
Amendments of 1988,” which directed agency and department heads to report to Congress semi
annually on the status of follow-up on OIG audit report recommendations.

OIG Recommendation # 7: Issue guidance to AMOs and AFCs defining information that
should be in the Past Due Notes section of MATS (Management Audit Tracking System).

        Agree. OCFO recognizes the need for guidance to specify the information that AFCs
should enter into MATS mandatory information fields, particularly in the “Past Due Comments”
section. Reassignment, retirement, and separation from the Agency, among other actions, have
contributed to the need to reinforce for new AFCs expectations about the manner and content of
data entry. The CFO memorandum discussed under Recommendation #5 above will provide this
guidance, and instructions will also be included in the training OCFO provides periodically to
AFCs and in the “refresher” training discussed under Recommendation #9.

OIG Recommendation # 8: Document OCFO’s quality assurance plan for MATS,
including periodic spot checks, to ensure the quality of data in the system.

       Agree. OCFO recognizes the need for a written plan to routinely assure the quality and
completeness of data in MATS. Such a plan would include guidelines for reviewing MATS
entries—particularly mandatory data fields, such as listings of corrective actions—for
completeness and ensuring that certification documents are provided for all final actions
reported. OCFO will work with OIG to develop a workable and effective quality action plan,
and we will issue the plan to Agency AFCs and monitor compliance.

OIG Recommendation # 9: In addition to the training OCFO currently provides on an as-
needed basis, prior to the semiannual reporting, provide refresher training to AFCs on
populating the required data fields and the report inactivation requirements of MATS and
EPA Order 2750.

        Agree, with considerations. While OCFO has been training individual AFCs on an as-
needed basis, we concur that providing refresher training for all AFCs would help strengthen the
Agency’s audit follow-up process. We propose to work with OIG to develop and conduct
training prior to the FY 2007 end-of-the-year reporting period and provide additional training
sessions on an as-needed basis. With respect to the phrase, “…and the report inactivation
requirements of MATS…,” in the above recommendation, we believe this may be confusing as
inactivation is more of an OCFO than an AFC responsibility. We recommend replacing this
phrase with: “…and completing final action requirements, including certification.”




                                               16

                                                                                  Appendix C

                   Response by the Office of Water

MEMORANDUM

SUBJECT:       Office of Water Response to Draft Evaluation Report: EPA Can Improve Its
               Oversight of Audit Followup, Assignment No. 2006-1508

FROM:          Benjamin Grumbles,
               Assistant Administrator, Office of Water

TO:            Dan Engelberg,
               Director for Program Evaluation, Water Issues
               Office of Program Evaluation
               Office of Inspector General

        Thank you for the opportunity to comment on your Office’s draft report, “EPA Can
Improve Its Oversight of Audit Followup” (No. 2006-1508). The Office of Water (OW)
appreciates the attention that the Office of Inspector General (OIG) has brought to the issue of
Agency oversight of audit followup actions. OW takes its audit follow-up responsibilities very
seriously and plans to make the necessary effort to oversee and close out all corrective actions
related to all past audits. We also appreciate the extent the OIG acknowledged the comments
OW provided to the January 12th discussion draft evaluation report.

       We concur with the findings described in the draft report related to EPA’s responsibilities
for maintaining effective oversight of audit followup action. We concur with the four
recommendations addressed to the Office of Water and the Office of Enforcement and
Compliance Assurance on page 10 of the draft report. Additional comments on when and how
we plan to address each of the recommendations is provided in the attachment.

       Thank you again for the opportunity to comment on the draft report. If you have
questions regard my comments, please contact Michael Mason, Resource Management Staff, at
564-0572.


Attachment

cc: 	   Mike Shapiro, OW
        Tim Fontaine, OW
        Michael Mason, OW
        Bill Roderick, OIG
        Wade Najjum, OIG
        Elizabeth Grossman, OIG
        Eileen McMahon, OIG

                                             17

Kathy O’Brien, OCFO
Rita Smith, OCFO
Debbie Rutherford, OCFO
Sharon Tant, OCFO
Barbara Freggens, OCFO
Gwen Spriggs, OECA




                          18
                                               Attachment 1

      Recommendation 1: Require AMOs and AFCs to implement EPA Order 2750, and
biannually review audit management information including official files, to ensure
completeness and accuracy.

       OW concurs with this recommendation. The OW Audit Followup Coordinator (AFC)
will continue to review all audit management information including official files on a biannual
basis. These reviews will be conducted every March and September to coincide with the
Agency’s requirement under EPA Order 2750 and the IG Act to report to Congress on the status
of completing corrective actions. Every effort will be made to maintain the completeness and
accuracy of the information.

       Recommendation 2: Obtain OIG approval for any significant changes to corrective
action plans, involving the deferral of milestones dates for 6 months or more.

      OW concurs with this recommendation. The OW AFC will notify the OIG and seek its
approval for any significant changes to corrective action plans.

        Recommendation 3: Require AMOs and AFCs to certify in MATS the date of the
certification letter and signing official’s name and title, before the Final Action Date is
entered, and the report moved to Inactive status.

         OW concurs with this recommendation. The OW AFC has notified the Action
Officials, or their designates, for three of the OIG water program studies discussed in the draft
report that they are required to provide a certification letter to the AFC when all corrective
actions are completed. All corrective actions for these studies are considered to be completed
and a certification letter will be included in the file. Once the certifications letters are received,
the AFC will enter the necessary information into MATS so OCFO can provide the Final Action
Date and move the report to Inactive status.

       Recommendation 4: Require AFCs to maintain a list of corrective action taken by
the program office either in MATS or in the official files.

       OW concurs with this recommendation. The AFC will continue to maintain a brief
description of the corrective actions taken by the Action Official in MATS and the official file.




                                                19

                                                                                 Appendix D

           Response by the Office of Enforcement and 

                   Compliance Assurance 


MEMORANDUM

SUBJECT: 	 OECA Comments on Draft Report, “EPA Can Improve Its Oversight of
           Audit Followup,” Assignment Number 2006-1508, dated April 5, 2007

FROM: 	       Catherine R. McCabe
              Principal Deputy Assistant Administrator

TO:    	      Dan Engelberg
              Office of Inspector General
              Director for Program Evaluation, Water Issues

    Thank you for the opportunity to review and comment on the Draft Report, “EPA Can
Improve Its Oversight of Audit Followup,” Asssignment Number 2006-1508, dated April 5,
2007. The Office of Enforcement and Compliance Assurance (OECA) has completed its review
of the report and affirms its commitment to fully implement the requirements of the Agency’s
guidance, EPA Order 2750, “EPA’s Audit Management Process.” OECA’s Administration and
Resources Management Support Staff (ARMSS), which has the primary responsibility of
interfacing with our internal program offices, Office fo the Chief Financial Officer and the OIG
staff, has been assigned the lead responsibility to work with senior managers across OECA to
develop a set of standard operating procedures which will enhance our compliance with EPA
Order 2750, including a biannual review audit, enhances reporting and recordkeeping,
development and tracking of corrective action plans, and closure certification and documentation
procedures. The corrective action plan and schedule are attached.

   Finally, as noted in the report, OECA has corrected the administrative error in the
Management Audit Tracking System (MATS) file and returned the State Water Enforcement
Report to active status.




                                             20

                       CORRECTIVE ACTION PLAN 

          “EPA CAN IMPROVE ITS OVERSIGHT OF AUDIT FOLLOWUP” 



Number Recommendation                   Planned Corrective Action         Planned
                                                                          Completion
  1    Require AMO’s and AFCs to        Conduct an assessment of the      Within 90 days
       implement EPA Order 2750,        current system to ensure
       and biannually review audit      accuracy and documentation.
       management information
       including official files, to     Develop an OECA SOP which         Within 6
       ensure completeness and          fully addresses the AFCs          months of the
       accuracy.                        responsibility to perform         issuance of the
                                        biannual reviews and ansure a     OIG’s Final
                                        file is complete and accurate.    Report

  2    Obtain OIG approval for any      Following the assessment          Within 90 days
       significant changes to           described above.
       corrective action plans,
       involving the deferral of
       milestone dates for six
       months or more.
  3    Require AMOs and AFCs to         Documentation will be verified    Documentation
       certify in MATS the date of      for inactive status cases from    to be verified
       the certification letter and     the last five years and the       for current
       signing official’s name and      procedures will be included in    inactive reports
       title, before the Final Action   the SOP referenced above.         within 90 days
       Date is entered, and the
       report moved to Inactive                                           SOP to be
       status.                                                            completed
                                                                          within 6 months

  4    Require AFCs to maintain a       Corrective action plans will be   Within 90 days
       list of corrective actions       developed where needed and        for current
       taken by the program office      the proposed OECA SOP will        active cases.
       either in MATS or in the         fully address the AFC’s
       official file.                   responsibility to maintain
                                        certain data in MATS




                                            21

   OECA appreciates the opportunity to review and provide comments on this draft report. We
look forward to working with your office to finalize this review. If you have any future
questions or concerns, you may contact OECA’s Audit Follow-Up Coordinator, Gwendolyn
Spriggs, on 202-564-2439.

cc: 	   Lyn Buhl, OECA/DAA
        Margaret Schneider, OECA/IO
        David Swack, OECA/ARMSS
        Lisa Lund, OECA/OC
        Richard Albores, OECA
        Will Anderson, OCFO
        Sharon Tant, OCFO




                                           22

                                                                             Appendix E

                                   Distribution

Office of the Administrator
Chief Financial Officer
Agency Followup Coordinator
Assistant Administrator for Water
Assistant Administrator for Enforcement and Compliance Assurance
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Followup Coordinator, Office of the Chief Financial Officer
Audit Followup Coordinator, Office of Enforcement and Compliance Assurance
Audit Followup Coordinator, Office of Water
Acting Inspector General




                                          23

